         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       EPA’s and Louisiana’s Efforts
       to Assess and Restore
       Public Drinking Water Systems
       after Hurricane Katrina
       Report No. 2006-P-00014

       March 7, 2006
Report Contributors: 	              Carolyn Blair
                                    Geoff Pierce
                                    Jim Hatfield
                                    Tim Roach
                                    Rick Beusse




Abbreviations

CDC           Centers for Disease Control and Prevention
EPA           Environmental Protection Agency
LDHH          Louisiana Department of Health and Hospitals
OIG           Office of Inspector General
PCIE          President’s Council on Integrity and Efficiency




Cover Photo: 	 In the aftermath of Hurricane Katrina, floodwaters covered this St. Bernard
               Parish pumping station. The water tower was not damaged. EPA OIG Photo.
                       U.S. Environmental Protection Agency                                           2006-P-00014 

                       Inspector General                                                              March 7, 2006




                       At a Glance 

                                                                       Catalyst for Improving the Environment

Why We Did This Review             EPA’s and Louisiana’s Efforts to Assess and Restore 

                                   Public Drinking Water Systems after Hurricane Katrina

This review was conducted in
conjunction with the                What We Found
President’s Council on Integrity
and Efficiency as part of its      Our review indicated that the Louisiana Department of Health and Hospitals and
examination of relief efforts      drinking water systems operators provided the public with timely and accurate
provided by the Federal            information about the safety and proper treatment of drinking water. According
Government in the aftermath of     to EPA staff, 59,260 drinking water flyers were distributed in parishes affected
Hurricanes Katrina and Rita.       by the hurricane. Two publications related to drinking water protection, What to
We conducted this evaluation       Do after the Flood and Emergency Disinfection of Drinking Water, were
to assess the Environmental        published in English, Spanish, and Vietnamese.
Protection Agency’s (EPA’s)
and Louisiana’s efforts to
ensure that the public was         Louisiana’s process for determining the safety of drinking water appeared
provided with safe drinking        adequate to support the determinations made. EPA Region 6 provided critical
water after Katrina.               assistance to Louisiana in making these determinations. This assistance included
                                   assessing water systems, collecting and analyzing drinking water samples, and
Background                         providing information to the public about drinking water quality. Disease
                                   monitoring after Hurricane Katrina indicated that drinking water supplies were
On August 29, 2005, Hurricane      not a source of bacteriological infection. Neither EPA, the Louisiana Department
Katrina, a Category 3 hurricane    of Health and Hospitals, nor local water system operators we spoke with had
on the Saffir-Simpson scale,       identified or heard of occurrences of waterborne illnesses or diseases from
devastated parts of Louisiana      drinking contaminated water in the 2 months following Hurricane Katrina.
and rendered many drinking
water systems inoperable. By       With assistance from EPA and others, the Louisiana Department of Health and
August 31, 2005, the Louisiana     Hospitals had assessed the operational capacity of 600 public water systems in
Department of Health and           areas affected by the hurricane by September 20, 2005, and all systems by the
Hospitals issued boil order        end of October 2005. While there has been considerable progress in assessing
advisories for 15 parishes         the operational status of 1,591 drinking water systems in Louisiana and bringing
affected by the hurricane.         damaged facilities back on-line, substantial work remains to restore the drinking
                                   water infrastructure to pre-Katrina conditions. Louisiana officials are in the
                                   process of tabulating the estimated cost of replacements and repairs. The most
For further information,
contact our Office of
                                   recent public water system recovery estimates for Hurricane Katrina are about
Congressional and Public           $380 million. Three of the four water systems in our study account for
Liaison at (202) 566-2391.         approximately $360 million of this estimate.
To view the full report,
click on the following link:       Our review did not identify any conditions requiring corrective actions and no
www.epa.gov/oig/reports/2006/      recommendations are made.
20060307-2006-P-00014.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460



                                                                               THE INSPECTOR GENERAL




                                         March 7, 2006

MEMORANDUM

SUBJECT:              EPA’s and Louisiana’s Efforts to Assess and Restore
                      Public Drinking Water Systems after Hurricane Katrina
                      Report No. 2006-P-00014

TO:                   Benjamin H. Grumbles
                      Assistant Administrator for Water

                      Richard Greene
                      Regional Administrator, EPA Region 6

This memorandum transmits the results of an Environmental Protection Agency (EPA) Office
of Inspector General (OIG) evaluation regarding our observations of EPA’s and Louisiana’s
efforts to assess and restore public drinking water supplies after Hurricane Katrina. The
evaluation did not identify any conditions requiring corrective actions and no recommendations
are made. This report represents the opinion of the OIG and the findings in this report do not
necessarily represent the final EPA position. Our observations regarding the effectiveness of
the process used by EPA and Louisiana to ensure safe drinking water is limited to the public
water systems we reviewed.

The Agency agreed with our observations and provided only technical comments to our draft
report. We incorporated the technical comments in the final report as appropriate. The
comments from EPA’s Office of Water are in Appendix A and the comments from EPA’s
Region 6 are in Appendix B. Since our report made no recommendations, no further action is
required.

We appreciate the efforts of EPA and Louisiana officials and staff in working with us to develop
this report. If you or your staff have any questions regarding this report, please contact me at
(202) 566-0847 or Carolyn Copper, Acting Assistant Inspector General for Program Evaluation,
at (202) 566-0829.

                                            Sincerely,



                                            Bill A. Roderick
                                            Acting Inspector General
Attachment


cc: 	   Stephen L. Johnson, Administrator
        George M. Gray, Ph.D., Assistant Administrator for Research and Development
        Ann Klee, General Counsel
        Mike Mason, Audit Followup Coordinator, Office of Water
        Helen Swan, Audit Followup Coordinator, EPA Region 6
        Rick Linthurst, Acting Deputy Inspector General for Planning, Audit, and Evaluation, OIG
        Carolyn Copper, Acting Assistant Inspector General for Program Evaluation, OIG
        Mark Bialek, Counsel, OIG
Purpose
The President’s Council on Integrity and Efficiency (PCIE), a group of Federal audit and
investigative organizations, is conducting multiple audits, evaluations, and investigations of the
Federal Government’s response to Hurricanes Katrina and Rita. This review was conducted in
conjunction with the PCIE as part of its examination of relief efforts provided by the Federal
Government in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the final report
will be forwarded to the PCIE Homeland Security Working Group, which is coordinating
Inspectors General reviews of this important subject. As a member of the PCIE, the
Environmental Protection Agency (EPA) Office of Inspector General evaluated several issues
related to EPA’s response. One of these evaluations was to assess EPA’s efforts to ensure that
the public was provided with safe drinking water after Katrina. Our objectives were to answer
the following questions:

     1. 	 Were people in areas affected by Hurricane Katrina provided with timely and accurate
          information about the safety and proper treatment of their drinking water?

     2. 	 What is EPA’s process for determining that water treatment facilities are providing safe
          drinking water, and does this process appear adequate to support these determinations?

     3. 	 Have any waterborne illnesses or diseases from drinking contaminated water been
          identified, and if so, what steps were taken to identify and mitigate the contaminated
          water source?

     4. 	 What progress has been made in assessing the operational status of drinking water
          systems and what is the process for getting damaged facilities back on-line?

     5. 	 Did EPA follow its emergency response protocols, including those lessons learned from
          the World Trade Center and its responsibilities as delineated in the National Response
          Plan, to ensure the public had access to safe drinking water?

This report addresses questions 1-4 for actions in the State of Louisiana. Another report
addressed questions 1-4 for actions in the State of Mississippi. We plan to address question 5 in
a future report.

Scope and Methodology
We interviewed staff and managers from EPA Region 6 and the Louisiana Department of Health
and Hospitals (LDHH). We reviewed documents relevant to the status of water systems
provided by EPA and LDHH.

On November 16 and 17, 2005, we visited four judgmentally selected Louisiana water systems
impacted by Hurricane Katrina. These four systems include one of the systems for the City of
New Orleans and systems for St. Bernard, Lafourche, and Jefferson Parishes. We interviewed
drinking water staff and managers; toured facilities; and reviewed water quality sampling data,
emergency operating procedures, and public communications concerning the safety of the


                                                 1

drinking water. To select our sample of four systems, we categorized community water systems
(i.e., public water systems that serve at least 25 year-round residents) by the type of impact
suffered from Hurricane Katrina, ranging from a loss of power and water pressure to significant
structural damage. From these different categories we selected systems serving a large
population relative to the other systems in the same damage category. Prior to the hurricane,
these four systems served about 16 percent of Louisiana’s population that relied on community
water systems for their drinking water. We did not review the effectiveness of operations to
provide alternative water systems (e.g., bottled water) while the public water systems were
inoperable. Details on the four systems we reviewed are in Table 1.

        Table 1: Summary of Impacted Drinking Water Systems Selected for Review
        Water System                                                                                Population
     (and City or Parish)                              Damage Incurred                               Served *
 St. Bernard                      Loss of power and pressure, 3.5 feet of water in treatment          67,900
 (St. Bernard Parish)             facility, and damage to distribution system
 Carrollton                       Loss of power and pressure, extensive flood damage to               429,000
 (New Orleans) **                 treatment facility and distribution system, loss of 350
                                  vehicles
 Lafourche Water District #1      Loss of pressure and leaks in distribution system                     78,760
 (Lafourche Parish)
 West Jefferson                   Initial loss of power (operated on generators) and                  209,972
 (Jefferson Parish)               pressure, and approximately 112 pipe breaks in
                                  distribution system
* 	 Numbers represent pre-Katrina population served.
** 	 New Orleans is served by two water treatment facilities. Residents on the west bank of New Orleans are served
     by the Algiers water system.

Since the drinking water systems we reviewed were not randomly selected, our observations
regarding the effectiveness of the process used by Louisiana and EPA to ensure safe drinking
water is limited to the four drinking water systems we visited.

We conducted this evaluation in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States.

Observations
EPA Region 6 drinking water staff, their Louisiana counterparts, and local water systems’ staff
undertook extraordinary efforts to ensure that public water service was restored under difficult
circumstances in the aftermath of Hurricane Katrina (a Category 3 hurricane on the Saffir-
Simpson scale). Louisiana State officials contacted water systems to assess the damage and
assist systems in recovering operations as quickly as communications and travel conditions
allowed. Water system staff and others at the sites we visited remained at their facilities during
and after the hurricane despite being personally impacted by the storm. The State drinking water
staff responded with the public’s safety in mind by issuing boil order notices for systems
impacted by the storm. The State did not lift the boil order notices until bacteriological analyses
conducted in accordance with EPA requirements confirmed that the water was safe to drink.
Since we did not identify any issues requiring the immediate attention of EPA or Louisiana



                                                        2

officials, this report does not contain any recommendations. Details on what we found regarding
each of the four questions addressed follow.

1. Were people in areas affected by Hurricane Katrina provided with timely and accurate
information about the safety and proper treatment of their drinking water?

The information we reviewed indicated that the LDHH and drinking water system operators
provided the public with timely and accurate information about the safety and proper treatment
of the drinking water.

A standard mechanism for alerting the public to a potential problem with the public water supply
is a boil water notice. By following the boil water notice, consumers reduce exposure to
potential bacteriological contamination that can cause nausea, diarrhea, and for some susceptible
populations, death.

On August 29, 2005, the day Hurricane Katrina hit the Gulf Coast, LDHH issued a news release
warning consumers in four water districts to boil their water. The Jefferson Parish water system
was part of that first advisory. By August 31, LDHH issued boil order advisories for 15 parishes
affected by the hurricane, which included the other three systems in our sample. LDHH also
issued news releases that contained instructions for treating water (boiling, bleach, or iodine) to
remove possible pathogens. Consumers could learn about the status of their water system
through daily public notices issued by LDHH through radio and television stations, daily press
briefings, LDHH’s Web site, and other methods.

Water system managers and EPA staff described their efforts to inform the public about drinking
water. Because of power outages, a manager at the Lafourche water system drove to a nearby
local radio station with information about the boil order. In St. Bernard Parish, staff said
information on the system’s status was provided to the public via newspaper notices, the Internet,
and public information officers. Staff pointed out that most of the parish population was not able
to return to their homes during that time period. According to EPA staff, 59,260 drinking water
flyers were distributed in parishes affected by the hurricane. Two publications related to
drinking water protection, What to Do after the Flood and Emergency Disinfection of Drinking
Water, were published in English, Spanish, and Vietnamese.

The LDHH has detailed procedures for issuing and lifting boil order notices. The four systems
we reviewed had met the State’s requirements before the boil order notice was lifted. The
requirements for lifting boil water notices are discussed in more detail in the following section.

2. What is EPA’s process for determining that water treatment facilities are providing safe
drinking water, and does this process appear adequate to support these determinations?

Under the 1974 Safe Drinking Water Act, States may apply to EPA for “primacy, or authority to
implement and enforce the Act within their jurisdictions, if they can show that their drinking
water standards will be at least as stringent as the national standards.” EPA granted Louisiana
primacy for its drinking water program in 1977. Therefore, responsibility for water treatment
facilities to provide safe drinking water primarily resides with the State rather than EPA.



                                                 3

The State’s process for determining the safety of drinking water following Hurricane Katrina
appeared adequate to support the determinations made. LDHH hurricane recovery procedures
require boil order advisories for public water systems that lose power or pressure during a
hurricane or flood. The boil order advisory continues until water system operators notify LDHH
that the system has power and pressure, has been flushed to remove potentially unsafe water, is
properly disinfecting the source water supply, and has passed bacteriological sampling. Only
LDHH may lift a boil water notice.

Bacteriological sample collection and analyses were conducted by generally following the
requirements of EPA’s Total Coliform Rule, which requires public water systems to test for total
coliform bacteria on a monthly basis at pre-determined sampling sites throughout the distribution
system. Under the Total Coliform Rule, the size of the population served by the system
determines the amount of sampling required. After Hurricane Katrina, LDHH allowed variations
in the number of samples required and used alternative sample locations due to damage or
inaccessibility to pre-determined sample sites. A system’s boil order was lifted only if all
samples tested negative for total coliform. This requirement was more restrictive than the Total
Coliform Rule, which allows 5 percent or less positive samples. If samples tested positive for
total coliform, additional sampling was required with direct LDHH staff involvement.

In some cases, LDHH may partially lift boil order notices. LDHH approved a partial boil order
lifting for two of the drinking water systems we evaluated – St. Bernard Parish and Carrollton –
when damaged sections were valved off and tests indicated the water was safe to drink in certain
locations:

   •	   The St. Bernard Parish water system manager noted that the partial boil order was lifted
        for one street, which served temporary schools, hospitals, and housing sites. Most of
        St. Bernard Parish had not been repopulated at the time of our visit in November 2005.
        At that time, only 100 customers were relying on this water system, mostly related to
        emergency operations. Before the hurricane the system had served 67,900 people.

   •	   The Carrollton treatment facility, which serves a large portion of the City of New
        Orleans, gradually opened portions of the distribution system, with most of the Carrollton
        facility serving the city by December 8. While many sections of the city were devastated
        by Katrina, some sections were only minimally impacted, and partial boil water lifts
        allowed those areas to continue to operate. Prior to Katrina, the Carrollton treatment
        facility served about 429,000 people.

Table 2 shows when boil order notices were issued, the results of water testing, the dates systems
were inspected, and the dates the boil water notices were lifted for the four water systems we
reviewed.




                                                4

          Table 2: Progress of Four Water Systems through Early December 2005
                    Boil Water                                          Dates of        Date
       Water         Notice          Water Sampling Results             Physical     Boil Notice
      System         Issued           for Lifting Boil Notice         Inspections      Lifted
 St. Bernard         08/31/05    Total Samples = 39                     9/15/05        12/07/05
                                 Total Positive = 1                     9/20/05

                                 An additional 35 samples were
                                 analyzed and all tested negative
                                 for total coliform
 Carrollton          08/31/05    Total Samples = 247                    9/12/05        10/06/05
                                 Total Positive = 1                     9/17/05        (partial)
                                                                        9/20/05        12/08/05
                                 An additional 3 samples were                          (partial)
                                 collected from the positive sample
                                 site and all tested negative for
                                 total coliform
 Lafourche Water     08/31/05    Total Samples = 23                     9/11/05        09/03/05
 District #1                     Total Positive = 0                     9/19/05
 West Jefferson      08/29/05    Total Samples = 301                    9/13/05        09/13/05
                                 Total Positive = 3                     9/20/05

                                 An additional 9 samples were
                                 analyzed and all tested negative
                                 for total coliform


Five of the 610 samples collected by these water systems tested positive for total coliform. This
represents less than 1 percent of the samples taken (0.8 percent). For the three systems with
positive samples, these systems collected and tested additional samples, all of which tested
negative for total coliform.

St. Bernard Parish was also the site of an oil spill, as approximately 1,050,000 gallons of mixed
crude oil escaped from a dislodged above-ground storage tank on September 3, 2005. The St.
Bernard water system managers reported that, based on visual inspections, they saw no evidence
of oil in the drinking water system. As a further precaution, all surface water systems in the New
Orleans area that rely on the Mississippi River for source water underwent additional chemical
testing. While this was not required, staff from LDHH believed it was important to determine
whether chemical contaminants were affecting drinking water quality. There were initial
positive readings for acetone, but additional testing indicated these were false positives. LDHH
reported its greatest concern was related to short-term exposure to bacteria rather than short-term
exposure to other contaminants. For the drinking water systems we reviewed, over 99 percent of
the initial samples taken did not identify the presence of total coliform. When testing indicated
the presence of total coliform, additional sampling and analyses were required from the original
sampling locations that produced the positive samples. The boil water notices were not lifted
until this additional testing was negative for total coliform.

EPA provided logistical and technical support to the State during this process. This support
included, but was not limited to, EPA staff working in teams with staff from LDHH and the
Louisiana Rural Water Association to assess damaged water systems. Between September 8


                                                 5

and 20, these teams assessed the operational capacity of 600 public water systems in the areas
affected by the hurricane. EPA also provided two mobile labs to analyze bacteriological samples
from public water systems and staff to courier samples to the labs for analysis. Additionally,
sample kits were provided by EPA to Parish Health Units where private well owners could
obtain them. Results were communicated back to the well owners after analyses were
completed.

3. Have any waterborne illnesses or diseases from drinking contaminated water been
identified, and if so, what steps were taken to identify and mitigate the contaminated water
source?

None of the staff from EPA, LDHH, or local water systems that we spoke with identified or had
heard of occurrences of waterborne illnesses or diseases from drinking contaminated water in the
2 months following Hurricane Katrina. In mid-November, Louisiana’s State Epidemiologist
reported to us that there have been no illnesses attributed to contaminated drinking water. In
accordance with its role and responsibilities under the National Response Plan, the U.S.
Department of Health and Human Services, Centers for Disease Control and Prevention (CDC),
monitors areas for outbreaks of disease and illnesses after a disaster. A CDC dispatch dated
September 30, 2005, noted that CDC had received reports of clusters of diarrheal disease among
persons in evacuation centers, but “three weeks after the initial displacement caused by Katrina,
few cases of diarrheal disease were being reported.”

Additionally, in a further effort to reduce potential exposure to contaminated drinking water,
LDHH developed special procedures for reopening restaurants under a boil order advisory.
Restaurants are usually closed when boil water notices are issued, but the widespread damage
caused by Hurricane Katrina required LDHH to modify some of its long-standing policies. Food
establishments that sought approval to reopen after the hurricane had to undergo an inspection by
LDHH and have access to potable water for food preparation and cleaning.

4. What progress has been made in assessing the operational status of drinking water
systems and what is the process for getting damaged facilities back on-line?

EPA and LDHH staff developed a database of assessments conducted by teams in the immediate
aftermath of Hurricane Katrina. After Hurricane Rita made landfall in Texas on September 24,
2005, the database was expanded to include systems affected by Hurricane Rita as that storm
impacted more water systems and caused re-flooding in the New Orleans area. In September and
October 2005, these teams had assigned status codes for 1,591 public water systems (see
Table 3).




                                                6

                    Table 3: Water System Status Codes and Descriptions
 Status Code                                            Description
 OUT            Out of Contact – under boil order advisory.
 INOP           Contact Made with System – no power and off-line. It is assumed that pressure is lost
                and is under a boil order.
 GENLP          Generator with Lost Pressure – currently operating on emergency power/generator and
                system lost pressure and/or treatment. Under a boil order advisory.
 GENOK          Generator and No Pressure Loss – currently operating on emergency power/generators
                but system did not lose pressure and/or treatment.
 OK             Normal power restored (or never lost) and system never lost pressure and/or treatment
                (No Problem with System).
 NEED           System Operating – disinfected and flushed and is ready for bacterial sampling.
 CLEAR          System online and bacterial samples came back clear. Boil notice lifted.


LDHH staff updated the database between September 6 and December 7. This information
allowed LDHH officials to track the operational status of water systems. As of December 7,
2005, LDHH reported that of the 1,591 public water systems tracked, 1,490 were operating
without boil order notices. The
remaining 101 systems were on boil            Table 4: Status of Systems Not Operating
order notices, deactivated, or in
                                                                                      No. of
another status (see Table 4).                               Status                   Systems
                                            Boil Order Notices                                    24
Challenges to reestablishing full            Deactivated                                        62
operations continue. Within our              In Process of Being Cleared for Service             9
sample, water system staff and others
                                             Closed to Business but Still Active in Inventory    3
described challenges to recovery.
                                             Rebuilt                                             2
For example, cleanup crews in the
St. Bernard Parish water system              Consolidated with Larger System                     1
inadvertently damaged fire hydrants
when lifting debris stacked next to
the hydrants, forcing water lines to shut down and be flushed. Water system officials said this
will likely continue until the cleanup is finished. Additionally, the loss of almost the entire
67,900-customer fee base also presents problems for the water system’s recovery; a planned
replacement of a 50-year-old portion of the treatment facility is now uncertain because of the
loss of this fee base.

Outside assistance helped water systems recover from the hurricane. The Sewerage and Water
Board of New Orleans’ Executive Director noted that the city received assistance from other
water systems. Thirty-five staff from the drinking water plant in Portland, Oregon, assisted in
efforts to assess damage caused by the hurricane. LDHH officials said the Louisiana Rural
Water Association helped small systems acquire power generators and assisted in assessments
that were necessary for reopening.

Under the Federal Emergency Management Agency’s Public Assistance Program, water systems
could apply for funds to replace equipment damaged in the hurricane. On February 24, 2006,


                                                   7

LDHH provided an estimate of $380 million for the cost of water system recovery attributed to
Hurricane Katrina. Three of the four water systems in our study (Carrollton, St. Bernard, and
West Jefferson1) account for approximately $360 million of this estimate.




1
    West Jefferson and East Jefferson Water Districts share a combined estimate.



                                                           8

                                                                                     Appendix A

                      EPA Office of Water Comment

                                          FEB 23 2006

MEMORANDUM

SUBJECT:       Response to Draft Evaluation Report on EPA’s and Louisiana’s Efforts to Assess
               and Restore Public Drinking Water Supplies after Hurricane Katrina,
               Assignment No. 2005-001748

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Nikki L. Tinsley
               Inspector General

        Thank you for the opportunity to comment on your Office’s draft report, EPA’s and
Louisiana’s Efforts to Assess and Restore Public Drinking Water Supplies after Hurricane
Katrina. The hurricanes which struck the Gulf Coast region last fall were significant, not only in
their effects, but in the response they required from the local to the federal levels. We are proud
of the efforts made by personnel from utilities, state programs, non-governmental organizations
and our own employees in working to restore drinking water services after the storm.

        The Agency is very appreciative of the cooperative approach used by the Inspector
General's (IG) Louisiana Drinking Water Team during the investigation of Region 6's response
to Katrina. The many details of the Agency's response to assist the State of Louisiana and its
public water systems, along with the duration of the response, made it critically important for
Region 6 to actively participate in the investigation. It was clear that Region 6’s presence with
the IG Team enabled them to fully understand the context and significance of the information
being conveyed. The end result of your cooperative approach is a report that accurately reflects
the Agency's activities and successful response to this unfortunate and significant event in the
lives of the citizens of Louisiana.

        We appreciate the ability to provide comment on this draft report. We have some minor
technical corrections to recommend, which have been forwarded via email to Carolyn Blair and
Tim Roach of your staff. We do not believe that any additional points need to be raised for
inclusion in the final report. We will continue to provide support to the state as needed to
address long-term recovery needs for communities and public water supplies in the affected area.

       Thank you again for the opportunity to comment on this final report. If you have further
questions, please contact Cynthia Dougherty, Director of the Office of Ground Water and
Drinking Water at (202) 564-3750 or Miguel Flores, Director of the Water Division in EPA’s
Region 6 office at (214) 665-7101.


                                                 9

                                                                                     Appendix B

                           EPA Region 6 Comment

Region 6 has reviewed the draft February 7, 2006, OIG Evaluation Report entitled EPA's and
Louisiana's Efforts to Assess and Restore Public Drinking Water Systems after Hurricane
Katrina. The report accurately reflects our collective (local, state, federal) response. We do not
believe any additional points need to be raised for inclusion in the final report, but we
recommend the following technical corrections for your consideration:

1. 	   In the second paragraph on the page labeled "At a Glance," make the following change:
       "Disease monitoring after Hurricane Katrina indicated that drinking water supplies were
       not a source of bacteriological contamination infection."

2. 	   In the third paragraph on page 4, we suggest changing the sentence to read "In some
       cases, LDHH staff members may partially lift boil order notices", since it is an Agency
       action.

3. 	   Table 2, page 5. The LDHH website indicates the dates the Boil Water Advisories were
       lifted for portions of the areas served by the New Orleans Carrollton water system were
       October 6, 2005 and December 8, 2005. Two additional dates that Boil Water Advisories
       were partially lifted for St. Bernard Parish are November 22, 2005 and December 7,
       2005, per the LDHH website.

4. 	   In the last paragraph under the response to question 2 (top of page 6), add Louisiana
       Department of Health and Hospitals before Louisiana Rural Water Association - ...EPA
       staff working in teams with staff from the Louisiana Department of Health and Hospitals
       and the Louisiana Rural Water Association to assess....

5. 	   Last paragraph on page 7. Sewerage and Water Board of New Orleans is the title the
       agency uses on their letterhead.

6. 	   In the last paragraph on page 7 (second to last paragraph overall), change Portland,
       Louisiana to Portland, Oregon.




                                                10

                                                                                 Appendix C

                                     Distribution


EPA Headquarters

               Office of the Administrator
               Assistant Administrator, Office of Water
               Assistant Administrator, Office of Research and Development
               Director, Office of Ground Water and Drinking Water
               Agency Followup Official (the CFO)
               Agency Followup Coordinator
               Associate Administrator for Congressional and Intergovernmental Relations
               Associate Administrator for Public Affairs
               General Counsel
               Acting Inspector General


EPA Region 6

               Regional Administrator
               Director, Water Quality Protection Division
               Chief, Source Water Protection Division, WQPD
               Chief, Drinking Water Section
               Regional Audit Followup Coordinator


State of Louisiana

               Secretary, Department of Health and Hospitals
               Chief Engineer, Engineering Services, Center for Environmental Services,
                 Office of Public Health
               Safe Drinking Water Program Administrator, Engineering Services
               Louisiana State Epidemiologist, Department of Health and Hospitals




                                              11

